                           WHITE PAPER



Enriching Postal Information:
Applications for Tomorrow’s
Technologies
January 13, 2014




                     Report Number: RARC-WP-14-006
                                                               EXECUTIVE SUMMARY

 Enriching Postal Information: Applications
       for Tomorrow’s Technologies
The widespread use of computers, smart                                Highlights
devices, and online social networking has
marked the beginning of the Information               The Postal Service has a critical role in
Age. This Age has connected entities,                 delivering physical mail; however,
removed geographic boundaries, changed                information about the mail is now just
how we communicate and transact, and                  as important as the mail piece itself.
created new expectations for the future
marketplace. Supply of and demand for                 The market needs for information drive
                                                      strategic and investment decisions.
immediate information has disrupted
                                                      These decisions drive the technology
traditional roles, empowered consumers,               and integration that lead to the
and enabled internal efficiencies. Instant            development of customer-centric
information is the new normal for the world,          applications.
even in the mailing sector.
                                                      Interestingly, industry leaders in the
For more than 235 years, the Postal               information business are technology
Service has connected senders and                 neutral; the pursuit of technology
recipients by delivering physical mail            serves only as the means to meet
pieces. Today, the Postal Service delivers        customer needs.
160 million pieces of mail per year;
however, information about physical mail is       Applications based on the Postal
                                                  Service’s carrier network, vehicle fleet,
now just as important as the mail piece
                                                  and Post Office network could provide
itself. Mailers and consumers seek real-          core customer-centric applications,
time information on postal products and           such as a mobile post office.
services such as tracking and tracing of
parcels and new capabilities like directing
the place, date, and time of delivery. Postal management could use that information to
prevent service failures, align staffing and equipment to workload, increase workplace
safety, and decrease mail theft. Information could also unlock additional capabilities for
the public ranging from identity verification services to secure government transactions.
Postal sensor nets could assist with real-time mapping and traffic monitoring.

Industry leaders have adopted several common practices to provide this information.
They first commit to a long-term, strategic decision and investment based on customer
needs. Then, they research and invest in the appropriate information-gathering

U.S. Postal Service Office of Inspector General                                       January 13, 2014
                                                  i
RARC-WP-14-006                                     Enriching Postal Information: Applications for Tomorrow’s Technologies



technologies, such as mobile handhelds, barcodes, or Radio Frequency Identification
(RFID) tags. Interestingly, industry leaders are technology neutral and view it simply as
a means to meet market needs. The OIG worked with IBM to research a variety of
tracking technologies and highlight those most relevant to the postal industry. After
integration within the business, the last, and perhaps most important, practice is
developing customer-centric applications.

These applications address a wide range of external customers’ needs and internal
operational needs. This paper lists more than 50 potential applications focused on
sales, transportation, en-route operations, customer service, delivery and last mile, and
safety and security. The paper combines several applications into focus areas based on
the Postal Service’s competencies and strengths including its carrier network, vehicle
fleet, and Post Office network. These focus areas of mobile post offices, citizen
services, vehicle-related services, safety, real-time services, and internal operations
could be developed on a faster track.

The demand for mail products and services is evolving quickly in the Information Age.
The Postal Service has a critical role, not only connecting senders and recipients with
physical mail and parcels, but also by providing the digital information and information-
based services that businesses and citizens need. By increasing its investment in the
necessary technology and integration, gathering value-added information, and
delivering customer-centric applications, the Postal Service can position itself to
succeed in the information business.




U.S. Postal Service Office of Inspector General                                                        January 13, 2014
                                                  ii
RARC-WP-14-006                                                    Enriching Postal Information: Applications for Tomorrow’s Technologies



                                                  Table of Contents
Introduction ..................................................................................................................... 1

Applications ..................................................................................................................... 2
     Focus Area #1: Mobile Post Office............................................................................. 3
     Focus Area #2: Citizen Services ................................................................................ 4
     Focus Area #3: Vehicle Related Services .................................................................. 4
     Focus Area #4: Increase Safety and Reduce Costs .................................................. 5
     Focus Area #5: Create Real-Time Service ................................................................ 6
     Focus Area #6: Improve Internal Operations ............................................................. 6

Market Demands ............................................................................................................. 7
     External Demands ..................................................................................................... 7
     Internal Demands....................................................................................................... 9

Strategic Decision ......................................................................................................... 10

Technologies ................................................................................................................. 11

Conclusion .................................................................................................................... 14

                                                   A Closer Look
A Closer Look: Mobile Handhelds ................................................................................... 3

A Closer Look: Information Obsessed, Technology Neutral ............................................ 5

A Closer Look: The Customer is Always Right ................................................................ 8

A Closer Look: Amazon’s Culture of Commitment ........................................................ 10



                                                    Appendices
Appendix A              Applications for the Postal Service ........................................................ 15

Appendix B              Technology Research ........................................................................... 19




U.S. Postal Service Office of Inspector General                                                                       January 13, 2014
                                                                 iii
RARC-WP-14-006                                                     Enriching Postal Information: Applications for Tomorrow’s Technologies




                                                           Tables
Table 1                 Tracking and Scanning Technologies Description ................................ 12

Table 2                 Tracking and Scanning Technologies Comparison Matrix .................... 13

Table 3                 Sales Applications ................................................................................. 15

Table 4                 Transportation Applications ................................................................... 16

Table 5                 En-Route Operations Applications ........................................................ 17

Table 6                 Customer Service / CRM Applications .................................................. 17

Table 7                 Delivery / Delivery Network / Last Mile Applications.............................. 18

Table 8                 Safety / Security Applications ................................................................ 18

Table 9                 Description of Technologies — All Researched
                        Technologies ......................................................................................... 19

Table 10                Technology Comparison Matrix — All Researched
                        Technologies ......................................................................................... 21

Table 11                Technology Matrix Breakdown — 1-D Barcode .................................... 22

Table 12                Technology Matrix Breakdown — 2-D Barcode .................................... 22

Table 13                Technology Matrix Breakdown — Passive RFID................................... 23

Table 14                Technology Matrix Breakdown — Active RFID ..................................... 24

Table 15                Technology Matrix Breakdown — Active RTLS..................................... 25

Table 16                Technology Matrix Breakdown — ZigBee ............................................. 26

Table 17                Technology Matrix Breakdown — Cellular / Satellite based
                        GPS ...................................................................................................... 27

Table 18                Technology Matrix Breakdown — BLE .................................................. 27

                                                         Figures
Figure 1                Six Initial Focus Areas for Postal Service Applications ........................... 2

Figure 2                The Importance of Tracking to Consumers ............................................. 7



U.S. Postal Service Office of Inspector General                                                                        January 13, 2014
                                                                 iv
RARC-WP-14-006                                    Enriching Postal Information: Applications for Tomorrow’s Technologies




 Enriching Postal Information: Applications
       for Tomorrow’s Technologies

Introduction
The Information Age has ushered in an ever-increasing amount of information into
everyday life. The emergence of collection technology, social media, analytics,
smartphones, and cloud computing has redefined the value proposition for traditional
postal and delivery services. Customers are demanding instant access to near real-time
information on every delivery and are willing to pay a premium for these services. Postal
administrators and private shippers are deploying new technologies to allow tracking
information about all mail — from postcards to packages. These technologies gather
data that can be transformed to valuable information for both operations and customers.
Shipping companies can control costs and synchronize operations, while the
information makes e-commerce, correspondence, and transactions easier for
customers. Posts courageous enough to explore innovative ways to engage this
information will provide immense public good and customer value.

This paper suggests that the Postal Service must quickly adjust its strategies and
technologies to become a stronger competitor in this “information business.” The Postal
Service can do so by re-envisioning itself as not only a mail delivery service, but also an
equally important information platform. This information would include a wide range of
traditional shipping data such as addresses, internal operating data, logistics, billing,
and returns. In addition, the Postal Service could also provide information-based
services demanded by the public such as identity authentication, weather conditions,
current traffic flow, and more. The Postal Service possesses strengths and advantages
to gather this information. Assets such as its vast fleet of vehicles and the relationship
between its carriers and households are unmatched.

The Postal Service has traditionally invested in technology to gather and provide mail
information. One such example is the Intelligent Mail Barcode (IMb®). The IMb provides
valuable information about the mail piece, such as the destination address and mail
type, and can provide status updates to mailers and the Postal Service. However,
merely gathering and providing this information does not necessarily add value for
customers. To add value, the information must be presented through applications that
customers can use easily and that meet customers’ needs.

With the proper strategic approach, the Postal Service can reposition itself to meet the
growing customer needs in the information business. Imagine if the Postal Service could
provide customers the flexibility to cater their deliveries to their desires. The Postal
Service of the future could be the face of government by offering a variety of services
like identity verification via its carrier network. The Postal Service could use superior
analytics to automatically change the route of any mail piece. To better envision what


U.S. Postal Service Office of Inspector General                                                       January 13, 2014
                                                  1
RARC-WP-14-006                                            Enriching Postal Information: Applications for Tomorrow’s Technologies



the Postal Service of the future might look like, we start by discussing some of the
creative end user applications this information can provide.

Applications
The mail delivery companies that successfully evolved into information businesses
demonstrate one shared trait — a commitment to develop customer-centric solutions.
Compelled by unrelated circumstances, these companies use different technologies and
gather different data. However, they all successfully developed customer-centric
applications that made information easily accessible and met customer needs.

The Postal Service could begin developing initial applications based on its assets, core
competencies, and business strengths, such as its carrier network, vehicle fleet,
consistency of going to every door six days a week, and ubiquitous Post Office network.
Figure 1 highlights six initial focus areas for applications derived from these business
strengths, assets, and core competencies and is followed by a detailed discussion of
each. Appendix A provides a more extensive list of potential applications. 1

                    Figure 1: Six Initial Focus Areas for Postal Service Applications




1
 The OIG and IBM brainstormed the full applications list available in Appendix A and then selected some for further
discussion in this section.


U.S. Postal Service Office of Inspector General                                                               January 13, 2014
                                                         2
RARC-WP-14-006                                            Enriching Postal Information: Applications for Tomorrow’s Technologies



Focus Area #1: Mobile Post Office
One of the Postal Service’s biggest strengths is its carrier network. Six days a week,
over 200,000 postal carriers connect with every American household and business.
Applications that enhance the interactions between carriers and postal customers are a
logical opportunity to develop customer-centric information-based applications.

Many of us know our postal carriers. The
same carrier arrives at our door or mailbox,                       A Closer Look: Mobile Handhelds
delivers our mail, drops off and scans our
packages, and leaves attempted delivery                          Mobile hand-held devices are nothing
notices in our absence. Now imagine the                          new for delivery service companies.
digitally connected and enabled carrier of                       United Parcel Service (UPS) used its
the future — who uses a mobile information                       first hand-held device in 1991. 2 The
device, similar to an iPad, equipped with                        Postal Service followed shortly after in
applications that provide services previously                    1997. 3 Today, these types of devices
available at the local post office, like                         can do much more than their
purchasing stamps, escrow payment                                predecessors. France’s postal service,
services, digital collect-on-delivery services,                  La Poste, is currently piloting a
or passport services. 5 This device might                        smartphone to enable new customer
even change the way we ship packages —                           service offerings including identity
imagine if the carrier could debit the correct                   authentication. 4
postage from your established account
when they scan and accept your package at
your doorstep. This new approach allows
the Postal Service to meet its mission of
‘binding the nation together’ through offering
postal services where and when customers
need them and providing opportunities for
new products and services.

The Postal Service is exploring the potential
of mobile devices. For example, it recently
gave cell phones, capable of texting and
collecting real-time GPS data, to about 95
percent of its street letter carriers, which
should improve these carriers’ delivery efficiencies. However, cell phones are simply a
temporary bridge to the eventual solution of full-service mobile devices, such as “smart

2
  “The Evolution of the UPS Delivery Information Acquisition Device (DIAD), UPS,
http://pressroom.ups.com/Fact+Sheets/The+Evolution+of+the+UPS+Delivery+Information+Acquisition+Device+(DIA
D).
3
   “Hand Held Products Mobile Computers and Barcode Scanners,” emkat, 2013, http://www.emkat.com/hand-held-
products.asp.
4
   “La Poste develops smartphone for carriers, launches interactive delivery,” Post and Parcel, February 26, 2013,
http://postandparcel.info/54015/news/it/la-poste-develops-smartphone-for-carriers-launches-interactive-delivery/.
5
   U.S. Postal Service Office of Inspector General, Peer-to-Peer Commerce and the Role of the Postal Service, Report
No. RARC-WP-13-005, January 14, 2013, https://www.uspsoig.gov/sites/default/files/document-library/2013/rarc-wp-
13-005.pdf. These services are discussed further in this paper on peer-to-peer commerce.


U.S. Postal Service Office of Inspector General                                                               January 13, 2014
                                                         3
RARC-WP-14-006                                             Enriching Postal Information: Applications for Tomorrow’s Technologies



radios” or iPads, for all carriers. The Postal Service is currently planning to procure and
deploy 75,000 full-service devices by the summer of 2014.

Focus Area #2: Citizen Services
In addition to providing new ways to deliver existing services, carriers could also offer
new services via mobile devices, such as verifying an individual’s identity by
synchronizing with government databases. Online identity verification is an integral
missing link necessary to protect the public over the Internet, yet there is no easy and
secure way to verify online identities. 6 In Europe, posts are leveraging their trusted
brands to become the secure digital faces of government and to provide citizens with
channels to complete secure digital transactions like benefits payments and identity
authentication. 7 The Postal Service could connect the 15 percent of American adults
who do not use the Internet or further protect the citizens who already use the Internet
by providing secure payment choices or other options at the doorsteps of citizens. 8 La
Poste is currently exploring whether carriers could perform simple medical tests such as
obtaining weight and blood pressure for residents of sparsely populated rural areas. The
Postal Service should strengthen its historic and valuable position as the face of
government here, and explore alternative citizen services through its massive carrier
network.

Focus Area #3: Vehicle Related Services
The Postal Service’s 212,530 vehicles covering 1.3 billion miles every year represent
one of the largest civilian fleets in the world. 9 The Postal Service could leverage this
asset to provide useful information externally to the public and businesses, while
improving internal operations. This information, such as information about street signs
or construction zones, can prove invaluable to drivers navigating roadways and parking
their cars. Notably, Google’s recent purchase of Waze for $1 billion highlights the value
of this type of information. 10 Waze relies on input from its users to gather information
about accidents, traffic, or other driving information. It then supplies this information
through driving-direction applications or other means.

What is preventing the Postal Service from passively collecting similar or new
information not provided elsewhere through its vast carrier vehicle network and sharing
it through applications with information service providers? With information-gathering
technology, the Postal Service could provide live data on traffic or new information as
this field grows exponentially. In fact, Deutsche Post DHL leveraged its fleet to provide


6
  U.S. Postal Service Office of Inspector General, Digital Identity: Opportunities for the Postal Service, Report No.
RARC-WP-12-011, May 29, 2012, http://www.uspsoig.gov/sites/default/files/document-library-files/2013/RARC-WP-
12-011.pdf.
7
  “Digital Agenda for Europe,” European Commission, 2013, http://ec.europa.eu/digital-agenda/en.
8
  Kathryn Zickuhr, Who’s not online and why, Pew Research Center, September 25, 2013,
http://pewinternet.org/Reports/2013/Non-internet-users.aspx.
9
  “Postal Facts,” United States Postal Service, 2013, http://about.usps.com/who-we-are/postal-facts/.
10
   Peter Cohan, “Four Reasons Google Bought Waze,” Forbes, June 11, 2013,
http://www.forbes.com/sites/petercohan/2013/06/11/four-reasons-for-google-to-buy-waze/.


U.S. Postal Service Office of Inspector General                                                                January 13, 2014
                                                          4
RARC-WP-14-006                                            Enriching Postal Information: Applications for Tomorrow’s Technologies



real time street-level information. 11 Traffic volume is not the only potentially valuable
data: the Postal Service could also gather local weather information, detect hazardous
gas or radiation leaks, and even measure the availability of broadband or wireless
services in order to identify service availability. 12

Focus Area #4: Increase Safety and Reduce Costs
In addition to providing information to the public, upgrading its fleet of vehicles with
information-gathering technology could also benefit the Postal Service internally. For
example, Purolator Courier, the package shipment company in Canada, uses such
technology to monitor the time of delivery stops throughout the day to identify carriers
who were given too much or too little work; workloads are then rebalanced. Purolator
Courier also examines deliveries that take longer than average. This information can
identify neighborhoods or groups of locations that cost more than average to provide
delivery service and can aid posts in identifying potential locations for cluster boxes. 13
Another example is the UPS use of data to monitor its drivers’ behaviors to increase

                    A Closer Look: Information Obsessed, Technology Neutral

     UPS is a leading information and technology innovator within the package delivery
     business. Yet, the company uses antiquated barcode technology just like the
     Postal Service. So, why is UPS so highly regarded?

     UPS understands that technology and information are only as useful as the
     applications that help its customers. Customers can schedule their delivery within a
     2-hour window and effortlessly keep track of each package because UPS sends
     notifications of the pickup, en-route status, and delivery to customers’ email or
     mobile devices.

     UPS builds applications using analytics to drive its own business decisions. These
     applications reduce costly delivery-rescheduling by accounting for customer
     availability when planning routes. UPS’s investments in the proactive status
     notification systems for its customers also reduce internal costs by reducing the
     number of customer call inquiries. UPS uses analytics to determine the ideal layout
     when loading each delivery vehicle.

     Customers likely perceive UPS as the leading information and technology company
     because UPS designs its applications around its customers’ needs and then
     communicates their commitment and the availability of their customer-centric
     applications to the public and its customers.


11
   IBM interview with DP/DHL Team.
12
   Michael J. Ravnitzky, “Offering Sensor Network Services Using the Postal Delivery Vehicle Fleet,” (presented at
       th
the 18 Conference on Postal and Delivery Economics, Porvoo, Finland, June 4, 2010),
http://www.prc.gov/(S(15nbeh553nkk0xrme4etk0vd))/prc-
docs/newsroom/techpapers/Ravnitzky%20Postal%20Sensors%20Paper%20070910-MJR-1_1191.pdf.
13
   IBM interview with Purolator Courier team.


U.S. Postal Service Office of Inspector General                                                               January 13, 2014
                                                          5
RARC-WP-14-006                                          Enriching Postal Information: Applications for Tomorrow’s Technologies



seat belt use, reduce speeding, and reduce aggressive driving, thereby reducing injuries
and overall workers’ compensation costs. For instance, UPS analyzed GPS-enabled
vehicle movement data to determine that a vehicle backing up was the most risky
maneuver their drivers perform; the company then sought to eliminate these moves. 14
Considering that the cost of workers’ compensation for the Postal Service is $3.7 billion
annually and that 36 percent of those injury costs come from injuries to carriers, these
applications could be of great value to the Postal Service. 15 These same types of
technologies could additionally provide information about vehicles to help manage
delivery scheduling and preventative maintenance.

Focus Area #5: Create Real-Time Service
The Postal Service provides a critical service by connecting senders to receivers
through mail. Accessible analytics can greatly enhance this service. Currently, the
Postal Service collects and provides a lot of information about mail. Yet, there is an
increasing opportunity to satisfy customers’ needs and internal operational needs
through new customer-centric applications and analytics.

Mail service companies now provide automated status and progress updates to
customers through email or text messages. UPS sends automated updates to
customers’ email for 99.7 percent of its packages and DHL’s tracking application
provides status updates in real time, which enables employees to track time sensitive
shipments and adapt their planning accordingly. 16 Comparably, the Postal Service
currently provides status updates that a customer can look up online for about 90-95
percent of its packages.

Beyond basic tracking, customers increasingly want the ability to do something else with
this information, such as redirecting deliveries, performing mid-shipment returns, and
other customized delivery options. For example, 24 percent of consumers want to be
able to specify their delivery windows. Another 15 percent want to receive a text
message when their mail arrives. 17 These customer-centric type applications are
possible, and rely heavily on first obtaining the data necessary to feed these
applications.

Focus Area #6: Improve Internal Operations
The information to create applications for internal use already exists for most of the
mail. However, current Postal Service applications mainly function as passive indicators
that alert employees only if the employee actively checks on the information. In today’s
information overload environment, this active interaction with passive applications might
be impractical. Instead, the Postal Service could actively identify mail at risk of missing
14
    IBM interview with UPS.
15
    “Neither Rain Nor Sleet But Dog Bites: Post Office Workers’ Injury Claims,” Insurance Journal, September 27,
2013, http://www.insurancejournal.com/news/national/2013/09/27/306440.htm.
16
   “DHL app simplifies worldwide logistics management,” DHL, July 25, 2013,
http://www.dhl.com/en/press/releases/releases_2013/logistics/dhl_app_simplifies_worldwide_logistics_management.
html#.UkWxjHcw2ys.
17
    Boston Consulting Group, Same-Day Delivery, March 2013, p. 10.


U.S. Postal Service Office of Inspector General                                                             January 13, 2014
                                                       6
RARC-WP-14-006                                               Enriching Postal Information: Applications for Tomorrow’s Technologies



service or transportation connections and actively alert employees through a real time
application. Further, applications could actively notify processing plant employees when
traffic or weather delays trucks.

These six initial focus areas for applications illustrate the output from an information
business approach that recognizes customer needs, strategically outlines an approach
to meet those needs, and then utilizes technology that allows the application
development. We now explore the customer needs driving the demand for these
applications.

Market Demands
External Demands
The Postal Service first started tracking mail for internal quality control use. At that time,
customers desired mail service more than mail tracking information; customers viewed
tracking information as a marginally valuable extra service. Yet recently, information
about mail shipments has become the baseline expectation. 18

Many studies document this shift. As shown in Figure 2, 49 percent of consumers found
online delivery tracking to be most important to them when shopping online. 19

                              Figure 2: The Importance of Tracking to Consumers




Source: Boston Consulting Group, March 2013, Same-Day Delivery, page 10.




18
     OIG’s prior paper, State of the Mail, discussed this increase in information demand by consumers.
19
     Boston Consulting Group, Same-Day Delivery, p. 10.


U.S. Postal Service Office of Inspector General                                                                  January 13, 2014
                                                            7
RARC-WP-14-006                                          Enriching Postal Information: Applications for Tomorrow’s Technologies



Another study found that the following five
factors significantly influenced customers’                        A Closer Look: The Customer is
shipping choice:                                                            Always Right
     1) Tracking ability                                        In 2007, Purolator Courier had a
                                                                problem. One of its biggest customers
     2) Delivery options                                        was about to walk away, because
                                                                Purolator’s tracking information was
     3) Duration and reliability                                not keeping up with the customer
                                                                needs. Purolator had to decide — let
     4) Return service
                                                                this one customer go, or compete and
     5) Price 20                                                invest in the future?

These studies document how tracking                  Purolator wisely went with the latter
became the expected norm; delivery options           choice and expanded their information
are soon to follow. Consumers want more              services. They launched a new
control over their delivery experience —             logistics return service designed to
particularly a choice of date, time, and             automate the return process, reduce
location of delivery. Information leaders are
                     21                              costs and errors, minimize crowding in
responding by providing more delivery                business warehouses, and evaluate
options. Competitors’ customers can choose           their customers’ return habits.
where to have their packages or mail                 Purolator not only kept this one
delivered: parcel locker, their home, or their       customer, but also transformed its
office. SoPost is a recent startup company
       22                                            capabilities to meet emerging market
that takes these options one step further and        demands and its own internal needs.
aims to link consumers’ online profiles to their
home, work, and other physical addresses. This concept provides more choice to
consumers as to where to send their mail and purchases while reducing redelivery costs
and customer service calls for posts. 23 All of these initiatives highlight companies
responding to customer demands for increased delivery options.

Consumers want to receive their online purchases with ease. In fact, consumers are
willing to provide as much information as possible to their delivery providers to ensure
successful delivery. 24 This enviable circumstance is an opportunity for the Postal
Service to establish a stronger relationship with its customers; also, this would likely
increase customer adoption of applications and solutions.

Not only do consumers demand mail information, but businesses are even more data
hungry. Businesses demand mail tracking information, including delivery confirmation,

20
   International Post Corporation., IPC Cross-Border E-Commerce Report, 2010, p. 27.
21
   United Parcel Service, UPS Pulse of the Online Shopper, May 2013, p. 6.
22
   UPS’ service is named ‘UPS Delivery Intercept.’ FedEx’s service is named ‘FedEx Delivery Manager.’
23
   Steve O’Hear, “Crazy-Stupid Or The Future? SoPost Wants To Turn Your Twitter Handle Into A Physical Address,”
TechCrunch, December 3, 2012, http://techcrunch.com/2012/12/03/sopost/.
24
   IBM, Winning Over the Empowered Consumer, April 2012, p. 7 and Consumer Focus Scotland, ‘Effective parcel
delivery in the online era,’ August 2012, p. 6.


U.S. Postal Service Office of Inspector General                                                             January 13, 2014
                                                       8
RARC-WP-14-006                                       Enriching Postal Information: Applications for Tomorrow’s Technologies



barcode scans, and logistics support. Many businesses do not consider the Postal
Service’s tracking information services adequate. According to a survey of industry
shippers, 45 percent of those who answered said they would not consider the Postal
Service a viable alternative to FedEx or UPS for Ground Services. Furthermore, 63
percent said the Postal Service was not an alternative for Air or Express Services. 25
Credibility and brand reputation would greatly benefit from enhanced mail tracking
capabilities. The marketplace perception is that competitors are more technologically
advanced than the Postal Service and are much better at tracking and tracing
shipments. For example, a commonly used consumer review website claims that the
“Postal Service falls short when it comes to the ability to track packages; the USPS
website just can't give you the type of detailed tracking provided by FedEx and UPS.”26
In addition, some businesses concur. According to a freight consultant: “USPS has a
lack of guaranteed time delivery, inferior tracking system, lack of trust when it comes to
more expensive, time-sensitive items.”27 Whether this perception is warranted is
irrelevant — the perception is costing the Postal Service an immeasurable amount of
business and hurting the Postal Service’s brand and reputation.

Internal Demands
Accurate tracking information for 100 percent of mail could immediately increase Postal
Service operational efficiencies, prevent service failures, optimize new costing methods,
and improve law enforcement.

Efficiency of operations would improve if applications actively informed employees of
mail status. For example, currently, if a truck going from one plant to another is late, the
information of the exact amount of mail on that truck and delivery zones it contains can
be looked up manually in systems but is tedious and not practical. The Postal Service
would benefit from an active notification system of mail status so that management
could adjust the operations to still meet service requirements.

Tracking and mail information would enhance law enforcement by providing more
information about mail flow and patterns. Law enforcement could detect patterns of
missing mail in the operation flow to detect potential fraud. Internal postal operations
could be analyzed to find operation groups where mail disappears. Externally, clusters
of delivery addresses and undelivered reports could be analyzed to determine potential
mail thefts.

Lastly, tracking information could unlock unforeseen uses, applications, and
possibilities. Innovations are largely a by-product of the use of breakthrough technology
such as the telephone, Internet, or personal computer. Historically, the Postal Service
has been an innovator through creative experiments with airmail delivery, the ZIP Code
(Zone Improvement Plan), and optical character recognition technology. By sharing
these ideas with the public and allowing free use of their capabilities, these applications
25
   Martinez, Rob, Parcel Pricing Survey – Results Unveiled, www.ParcelIndustry.com, October 2011.
26
   “Shipping Companies: Reviews,” Consumersearch, 2013, http://www.consumersearch.com/shipping-companies.
27
   Parry, Tim, Why USPS is a viable alternative to FedEx and UPS, January 23, 2013.


U.S. Postal Service Office of Inspector General                                                          January 13, 2014
                                                     9
RARC-WP-14-006                                           Enriching Postal Information: Applications for Tomorrow’s Technologies



led to the expansion of completely unforeseen business models and greatly contributed
to the national GDP. 28 Tracking the mail offers another opportunity for the Postal Service
to inspire the innovators and entrepreneurs of our nation.

Strategic Decision
Industry leaders in the information business exhibit some commonalities and best
practices. To serve its mandate and meet the changing needs of the mail, the Postal
Service could adopt some of the
strategies of its peers and competitors.       A Closer Look: Amazon’s Culture of
                                                                                 Commitment
Industry leaders uniformly recognized
and responded to market needs. They                       Founded in 1994, Amazon is one of the
met those needs by using cost effective                   most successful Internet startup
technologies that met the requirements                    companies. One reason behind Amazon’s
of the customers. Leaders developed a                     success is its approach and corporate
well thought out strategic approach,                      commitment to customer-oriented
researched to meet those needs,                           application development. Amazon’s
integrated the data from those                            website suggests additional items
technologies, and finally developed                       customers may want to purchase based on
customer-centric applications.                            information the customers provide and
                                                          their purchase history. Amazon developed
The leaders recognized these inputs
                                                          a corporate culture that “reflected its drive
change continuously and re-examined
                                                          to innovate as well as its focus on
their strategies for each aspect regularly.
                                                          customer satisfaction. Developers were
This allows the leaders to meet market
                                                          encouraged to focus on the value added to
needs and even give an appearance of
                                                          customers rather than just adapting new
technological superiority when in fact
                                                          technology. Amazon strives to be the
they are using the same technology as
                                                          world’s most accessible and customer-
the Postal Service. Below we examine
                                                          centric company.” 29
the best practices from industry leaders
for each aspect of the continuous cycle
of development.

          Market needs drive the entire cycle – Market needs are constantly changing. As
           observed in our research, customers initially regarded tracking information as an
           extra service only a few years ago, but now expect it in the basic mail service.
           Currently, customers view delivery options as an extra service and will pay extra,
           but soon may also expect the ability to choose delivery options as included in
           their mail service. Leaders in the information business consistently re-examine
           the market needs and then strategically act with an appropriate response to stay
           ahead of the demands.

28
   U.S. Postal Service Office of Inspector General. The Untold Story of the ZIP Code. April 1, 2013. RARC-WP-13-
006.
29
   Amazon Enters the Cloud Computing Business, Micah Siegel and Fred Gibbons, Stanford University School of
Engineering, 2008, p. 3.


U.S. Postal Service Office of Inspector General                                                              January 13, 2014
                                                        10
RARC-WP-14-006                                         Enriching Postal Information: Applications for Tomorrow’s Technologies



          Today’s technologies are tomorrow’s discards – Industry leaders consistently
           research and invest in technologies to meet the market needs. That said, the
           leaders are technology neutral in that they view technology only as a means to
           meet customer and business needs. Therefore, they traditionally invested in the
           minimum technology to meet those needs and did not pursue excessive,
           dramatic technologies.

          Industry leaders strategically commit for the long haul – UPS spends over $1
           billion annually to research and develop applications and technologies to
           supplement their information business. Purolator changed their entire approach
           to information services to meet customer needs. Industry leaders are making
           large investments in the information business as it adds increasingly more value
           to the customer.

          Customer-centric applications – As previously highlighted, industry leaders
           design applications with the customers’ needs in mind and a pursuit to improve
           the quality of life for their customers. These applications provide the customer
           with a simple accessible means to accomplish their goals.

Technologies
Technologies are always changing, and more people are increasingly using them. In
2000, only 50 percent of households in the United States had a computer. However, by
2010, that number increased to 70 percent. 30 In 2001, dial-up Internet access was just
as popular as broadband in the United States, but now 70 percent of people use
broadband and only 3 percent of people use dial-up. In 2011, more people opted for
traditional cell phones over smartphones; today, 56 percent of people use smartphones
and only 35 percent traditional cell phones. 31 These examples illustrate the lightning-
quick pace at which today’s technology moves. To embrace technology’s creative
chaos, the Postal Service needs to reevaluate technologies on a continuous basis.

How do these technologies work?
Mail tracking and scanning technology should be thought of as a means to gather data
that can be transformed into information of interest to both a delivery service and its
customers. Technologies can be used individually or in concert. In particular, technology
recognizes individual items and assigns each one a unique identifier. This approach is
called Auto-Identification and Data Capture (AIDC). AIDC technologies identify objects,
collect data about them, and allow that data to interact with computer systems.
Commonly recognized AIDC technologies include Radio Frequency Identification
(RFID), memory cards, magnetic strips, 1-D/2-D barcodes, biometrics, and GPS. The
OIG worked with IBM to investigate and identify AIDC technologies that are potentially
useful to the Postal Service.

30
   Micah Siegel and Fred Gibbons, Amazon Enters the Cloud Computing Business, p. 3 and “Trend Data,” Pew
Research Center, 2013, www.pewinternet.org/Trend-Data-(Adults)/Home-Broadband-Adoption.aspx.
31
   Aaron Smith, “Smartphone Ownership 2013,” Pew Research Center, June 5, 2013,
http://pewinternet.org/Reports/2013/Smartphone-Ownership-2013/Findings.aspx.


U.S. Postal Service Office of Inspector General                                                            January 13, 2014
                                                     11
RARC-WP-14-006                                                      Enriching Postal Information: Applications for Tomorrow’s Technologies



Table 1 describes the technologies and presents sample applications and key features
and Table 2 compares these technologies’ attributes such as cost and effectiveness.
Both tables present the most relevant mailing industry technologies — Appendix B
presents a more comprehensive look at all tracking and scanning technologies
researched.

                         Table 1: Tracking and Scanning Technologies Description
                                                      Sample Industries/
                Technology                                                                       Key Features
                                                        Applications
                1D Barcodes
                                                  •   Retail/ Grocery stores      •    Items can be quickly identified
                                                  •   Department of               •    Can be used on mail pieces and
                                                      Defense                          parcels for delivery/ tracking
                                                  •   Healthcare                       purposes

           Matrix 2D Barcodes                     •   Pharmaceuticals             •    Items can be uniquely identified
                                                  •   Department of               •    Ability to store extra user
                                                      Defense at item level            information
                                                      for high value assets       •    Can be used on mail pieces and
                                                  •   Packages at item                 parcels for delivery/ tracking
                                                      level                            purposes
                                                                                  •    Significantly lower tag cost than
               Passive RFID                                                            Active RFID
                                                                                  •    No internal power
                                                  •   Supply chain
                                                                                  •    Items can be uniquely and
                                                  •   Retail
                                                                                       quickly identified
                                                  •   Libraries
                                                                                  •    Industry Standard
                                                  •   Inventory control
                                                                                  •    Can be used on parcels and
                                                                                       containers for delivery/ tracking
                                                                                       purposes
                Active RFID                                                       •    Battery powered
                                                                                  •    Input/output sensors/ capabilities
                                                  •   Logistics
                                                                                  •    Long read distance
                                                  •   Supply chains
                                                                                  •    Can be used on parcels and
                                                  •   Shipping containers
                                                                                       containers for advanced
                                                                                       delivery/ tracking purposes
        Cellular/ Satellite based
                                                                                  •    Visibility of assets during
                   GPS
                                                  •   Logistics/ Container             transportation without fixed
                                                      tracking                         infrastructure
                                                  •   Fleet tracking              •    Input/output sensors/ capabilities
                                                  •   Agriculture                 •    Can be used on handheld
                                                      equipment                        mobile devices for delivery
                                                                                       confirmation



Barcodes are the simplest technology in that they are merely a series of lines or
symbols on a print medium. The major advantage of barcodes is their relatively low
cost. The disadvantage is barcoding requires resources to manually or automatically
scan one at a time with line of sight.

U.S. Postal Service Office of Inspector General                                                                         January 13, 2014
                                                                  12
RARC-WP-14-006                                                   Enriching Postal Information: Applications for Tomorrow’s Technologies



The Postal Service uses 1D barcodes, like the IMb, to track its products. This approach
is inexpensive and reliant on scanners to read labels at specific scan points. UPS has
used 1D barcodes in the past but now uses a special 2D barcode called a Maxicode. 32
UPS scans its barcodes in a manner similar to the Postal Service’s, with a mix of
automated and manual scan points.

                   Table 2: Tracking and Scanning Technologies Comparison Matrix

                                            In-                    Used in High
                     Readability/                       Read                             Maturity of          Cost         Current
Technology                                Transit                    Volume
                      Efficiency                      Distance                           Technology          Trends         Cost
                                         Visibility                Applications

1D Barcode                                                                                                                      $

     Matrix 2D
                                                                                                                                $
     Barcode
     Passive
                                                                                                                               $$
      RFID

Active RFID                                                                                                                   $$$
 Cellular/
 Satellite                                                                                                                   $$$$
based GPS




RFID are electronic tags read by local readers that either activate passive tags or
receive signals from active tags. Passive tags are cheaper than active, because active
tags contain a battery and additional capabilities. RFID technology is more versatile
than barcodes because it can transmit more information and its readers can scan
hundreds of tags at once, which is useful in labor-intensive industries when 100 percent
scanning is required. The Postal Service has used active RFID for some internal
equipment tracking and international mail performance tracking. The last Postal Service
evaluation of passive RFID technology was in 2006. 33 Previously, passive RFID’s costs
were prohibitive to consider in lieu of barcodes, but it has become less expensive in the
last 5 years. 34 Russia’s postal operator has recently indicated that in two years it will tag
all its mail, up to 600 million items, with RFID. 35

GPS’ unique advantage is that a physical infrastructure (e.g., local readers) is not
required to read the tag. A space-based satellite system captures the data. This permits
the tag to communicate at virtually any time or any point in transit. Therefore, GPS is

32
   IBM interview with UPS.
33
   Interview with Information Technology department at Postal Service
34
   IBISWorld Industry Report 49222 - Couriers & Local Delivery Services in the US, March 2013, p. 30.
35
   Postal Technology International, March 2012, p. 48


U.S. Postal Service Office of Inspector General                                                                      January 13, 2014
                                                             13
RARC-WP-14-006                                     Enriching Postal Information: Applications for Tomorrow’s Technologies



the most on-call, precise, and geographically unrestrained method of tracking available.
The downside is that it is very expensive compared to RFID and barcodes. Each GPS
tag can cost $150-$500. Placing GPS on all Postal Service vehicles could be
expensive, but the value of the information provided might offset the cost. UPS uses
GPS technology to track its local delivery trucks, measure stop time and mileage,
monitor safety requirements, and improve and measure performance. Typically, a mix of
technologies is most appropriate depending upon factors such as application, value of
items being tracked, and level of visibility required.

“Technology is just a tool.” – Bill Gates
Interestingly, upon examination of the available technologies and those used by the
competitors, the Postal Service does not have a problem finding the right technology.
The Postal Service has repeatedly researched and invested in the technologies for mail
tracking; in fact, it uses the same comparative technology as its competitors. However,
success may be less about the technologies and more about how the information is
gathered and shared. The Postal Service has to refocus its efforts to determine what
information is useful and how customers will use it.

Conclusion
In the age of information overload, it is ironic that the Postal Service could better serve
the public by gathering and providing more information. In many areas, there is a clear
demand for better information and applications such as mail tracking and tracing,
package status, applications providing delivery options, and even areas like the weather
or identity verification. Market needs for information are expanding and with the
continuing emergence of handheld devices, analytics, cloud computing, and social
media, information will only become more valuable.




U.S. Postal Service Office of Inspector General                                                        January 13, 2014
                                                  14
RARC-WP-14-006                                                      Enriching Postal Information: Applications for Tomorrow’s Technologies



Appendix A Applications for the Postal Service
The OIG collaborated with researchers from IBM to create this list of potential
applications. The white paper highlights some of these applications. This list is not
exhaustive, as other creative applications exist beyond this list.

                                                    Table 3: Sales Applications

    Application Description                                                  Strategic Consideration
                                                  Core requirement when competing for B2B volumes with UPS and FedEx;
 Capture of 100% visibility and                   enabling technology to better optimize internal supply chain and reduce
     end-to-end tracking                          costs; key features for products in the Competitive Product portfolio;
                                                  enhances the overall Postal Service brand image.
                                                  Enhanced service offering will strengthen the overall value proposition for
     Ability to implement mid-
                                                  the Competitive Product portfolio and reduce operational costs to the Postal
         shipment returns
                                                  Service.
                                                  Enhanced service offering will provide new value add services utilizing track
                                                  and trace information, reduce failed delivery attempts, reduce operational
          Delivery redirect
                                                  costs to the Postal Service, and enhance the overall value proposition in the
                                                  Competitive Product portfolio.
Enhanced data services to large
                                                  Accurate, real-time information will contribute to growth in B2B revenue and
customers (en-route, accepted,
                                                  enhance the value of mail service offerings.
         delivered)
                                                  Create new product offering to capture market share from competitors in this
   Enhanced tracking for high
                                                  niche space; expand into new customer segment; enhance the overall value
         value items
                                                  proposition for Competitive Product portfolio.
                                                  Carrier utilizes mobile device to up-sell products and services such as carrier
Up-sell services at the doorstep                  pickup, insurance, and delivery confirmation; can complete the transaction
                                                  on the doorstep.
                                                  Carrier utilizes mobile device to complete transactions at the doorstep,
         Mobile post office
                                                  reducing need for individuals to visit brick and mortar post offices.
                                                  Standard track and trace information in addition to advanced information
                                                  (damage, temperature, humidity, and barometric pressure) for high value
  Guarantee package delivery                      shipments will equip mail service offerings with the ability to immediately
                                                  notify when out of compliance events occur; enhanced value of service could
                                                  increase revenue.
                                                  Combine track and trace data with existing applications such as Electronic
        Secure government
                                                  Post Mark (EPM) to support new secure door-to-door government service
           transactions
                                                  interactions with citizens.
                                                  Capture of data allows not only for protecting customer revenues; also
        Revenue assurance                         addresses scanning requirements per many bilateral agreements with
                                                  Foreign Postal Administrations in chargeback revenue models.
      Unbanked population                         Carriers could provide secure capabilities to the unbanked and underbanked
         transactions                             for e-commerce payments that are not currently being provided.
    Unknown future value add                      Best application utilizing track and trace information might not have yet been
           services                               invented that enhance the overall value of the mail.




U.S. Postal Service Office of Inspector General                                                                         January 13, 2014
                                                                   15
RARC-WP-14-006                                                      Enriching Postal Information: Applications for Tomorrow’s Technologies



                                          Table 4: Transportation Applications

    Application Description                                                  Strategic Consideration
                                                  Passive technologies would allow drivers to automatically enter and start
 Keyless RFID entry system to                     their delivery vehicles; this process would increase the safety for workers
        delivery trucks                           and the security of the contents of delivery vehicles and would also reduce
                                                  the potential need for costly locksmith/ lock changes.
Reduced truck check-in time at                    Passively tagged trucks would streamline the check-in process when arriving
          facilities                              at facilities.
                                                  Information passively collected via RFID would better enable tracking events
Improve asset maintenance and
                                                  such as tire rotation, replacement, alignment, etc., as well as immediate, on-
        record keeping
                                                  line access to logs of previous maintenance work.
                                                  Information passively collected and stored via RFID would allow for more
       Improve preventative
                                                  accurate coordination of preventative maintenance for assets whether based
          maintenance
                                                  on mileage, motor runtimes, or a combination of both.
                                                  Information passively collected and stored via RFID would better predict
     Predict and pre-notify
                                                  when maintenance measures will need to be completed as opposed to
 maintenance events for assets
                                                  simply responding to malfunctions as they occur.
   Improve inventory control of                   Passive RFID technology would allow for more automated inventory control
       spare trailer parts                        and procurement of spare parts for trucks.
                                                  RFID-equipped trailers would be easier to locate and monitor within RFID-
Truck visibility within trailer yard              equipped zones, knowing accurately and in real-time which vehicles are in
                                                  the trailer yard, which are at loading docks, and which are off-premises.
      Reduce detention and                        RFID real-time alerts would reduce detention and demurrage penalties
       demurrage charges                          associated with trailer yard delays by alerting users of status by trailer.
                                                  Carriers can use GPS-equipped mobile devices to report on traffic conditions
      Traffic flow information
                                                  to reroute shipments, to reduce cost, and as a public service.
  Manage HCR transportation                       More granular tracking data will assist in optimizing HCR lanes and aid in
           lanes                                  negotiating new HCR contracts.
                                                  More granular tracking data can help ensure adherence to scheduled routes
              Fuel usage
                                                  and save on fuel costs.
                                                  More granular tracking data will help better schedule trailer arrivals at
    Trailer arrivals at facilities
                                                  facilities to reduce the time spent idling and save on fuel costs.
                                                  Carriers can use GPS-equipped mobile devices to report on weather
        Weather information
                                                  conditions as a public service.
                                                  Carriers can use GPS-equipped mobile devices to report on road map
          Map information                         accuracy, especially in areas under construction and new housing
                                                  developments and addresses.
                                                  Carriers can use GPS-equipped mobile devices to report on accuracy of new
           Address quality
                                                  addresses and identify locations for cluster boxes in new developments.
                                                  Passive RFID technology can automatically identify how long mail and
   Parcel/ Mail to meet service
                                                  parcels have been idle and send notifications if appropriate.
                                                  Passive RFID technology will reduce loading errors by helping ensure that
Parcel/ Mail in appropriate truck
                                                  mail and parcels get loaded into the appropriate truck.




U.S. Postal Service Office of Inspector General                                                                         January 13, 2014
                                                                   16
RARC-WP-14-006                                                       Enriching Postal Information: Applications for Tomorrow’s Technologies



                                     Table 5: En-Route Operations Applications

    Application Description                                                   Strategic Consideration
                                                  Accurate, real-time track and trace information can aid in determining
     Better determine staffing
                                                  staffing requirements to fill orders and create staffing plans both for in-plant
           requirements
                                                  operations and scheduled delivery.
                                                  Better track and trace information can provide call centers employees with
        Improve call center
                                                  more real-time information to assist customer inquiries. This reduces overall
          effectiveness
                                                  call time and increases worker efficiency.
                                                  Accurate, real-time information (along with passive RFID) will help identify
 Identify mail at risk of missing
                                                  and correct en-route issues to enhance the overall value proposition of using
            service
                                                  the mail.
                                                  Accurate, real-time information will provide diagnostic tools with better data
  Improve service performance
                                                  to improve the overall operation of the supply chain.
                                                  Accurate, real-time information will help users to utilize diagnostic tools to
Better visibility into supply chain
                                                  reduce overall costs in the supply chain.
                                                  Passive tracking technology such as RFID would allow for more automated
    Improve inventory control                     inventory control and procurement of spare parts for trucks; physical
                                                  inventories will be performed with better accuracy and significantly faster.
                                                  Tagging MTE with passive tracking technology would reduce the significant
         Reduce asset loss
                                                  yearly loss in MTE.

                                  Table 6: Customer Service / CRM Applications

    Application Description                                                   Strategic Consideration
                                                  Access to accurate, real-time tracking data would allow for better delivery
  Increased delivery schedule                     scheduling flexibility and also enhances the value proposition of the
           flexibility                            Competitive Products portfolio; offers the opportunity to increase revenues
                                                  and enhances the overall Postal Service brand image.
    Reduced reliance on call                      Accurate, real-time customer service applications allow for better shipment
   centers as main CRM touch                      visibility for customers which would reduce the number of tracking inquiries
              point                               to customer call centers.
     Automate generation of                       Access to accurate, real-time information will streamline interactions with
        customer invoices                         customers, result in fewer calls with customers, and reduce cost.
                                                  Sharing of accurate, real-time shipment information would enhance cross-
     Customs data clearance
                                                  border shipment security, which might expand international trade markets.




U.S. Postal Service Office of Inspector General                                                                          January 13, 2014
                                                                   17
RARC-WP-14-006                                                       Enriching Postal Information: Applications for Tomorrow’s Technologies



                       Table 7: Delivery / Delivery Network / Last Mile Applications

    Application Description                                                   Strategic Consideration
   Monitor delivery truck’s rear                  Sensors can detect open doors or unsecure latches. Help ensure mail
               door                               integrity and general delivery safety and security.
                                                  Accurate, real-time information will help plan and manage delivery routes,
   Monitor delivery truck
                                                  immediately report out-of-compliance activities, better predict delivery times,
compliance on scheduled route
                                                  increase scheduling and staffing efficiency, and reduce costs.
                                                  Enables same day delivery, five-day delivery, Saturday and/ or Sunday
    Optimize dynamic delivery
                                                  parcel delivery, and the development of newer more day-certain and day-
             routes
                                                  specific delivery services.

                                         Table 8: Safety / Security Applications

    Application Description                                                   Strategic Consideration
                                                  Ability to identify and resolve issues in near-real time enhances the overall
               Mail theft                         value proposition of the Competitive Product portfolio; passive tracking
                                                  technology might further reduce overall incidents of lost mail.
                                                  Sensors can monitor the use of a seatbelt and also the speed of the vehicle
   Monitor driver seatbelt use                    to detect vehicle motion without the use of a seatbelt. Reduce injury rate and
                                                  OWCP costs.
   Monitor delivery truck’s side                  Sensors can monitor open doors like a driver or passenger door. Reduce
               door                               injury rate and OWCP costs.
    Monitor aggressive driving                    Reduce incident rate by real time tracking of delivery trucks.

          Monitor speeding                        Reduce incident rate by real time tracking of delivery trucks.
                                                  Ability to simultaneously contact all drivers via message to their mobile
      Emergency messaging
                                                  device to alert them of an emergency (such as 9/11), and how to respond.
                                                  Carriers can use mobile devices to capture and report emergency
                                                  information such as power outages, downed power lines and trees, non-
    Report emergency events
                                                  functioning traffic lights, etc.; can also serve as a public service after weather
                                                  events, terrorist attacks, etc.
      Personnel Emergency                         In the event of a disaster or emergency, identify the location of personnel via
           Response                               GPS.
                                                  Carriers can use mobile devices to capture and report information in
  Report infrastructure damage
                                                  neighborhoods such as potholes, damaged traffic signs, etc. as a public
           and issues
                                                  service such as the ‘SeeClickFix’ application in Richmond, Va.
                                                  Carriers can utilize mobile devices to check-in and report on medical status
          Citizen Services                        of elderly citizens, specifically in rural areas (currently being explored in
                                                  France in the countryside).
                                                  Identify where a mail piece is in the supply chain that presents a threat
        Intercept mail threat
                                                  (crime, biohazard, investigation, imminent danger).




U.S. Postal Service Office of Inspector General                                                                          January 13, 2014
                                                                   18
RARC-WP-14-006                                                   Enriching Postal Information: Applications for Tomorrow’s Technologies



Appendix B Technology Research
This paper highlights the tracking technologies most relevant to the postal industry;
however, this appendix describes and compares a broader range of technologies and
includes active real-time location system (RTLS), ZigBee, and Bluetooth (BLE)
technologies. Active RTLS are wireless, usually radio frequency driven, tags that can be
attached to an object to track its path through local facilities, such as warehouses,
hospitals, or assembly lines. ZigBee is a newer specification, wireless transmitter
capable of communicating up to 100 meters. Bluetooth uses short-wavelength radio
transmissions to communicate over short distances. It can connect several devices
overcoming conflict and synchronization issues.

                Table 9: Description of Technologies — All Researched Technologies
                                                  Sample Industries/
             Technology                                                                        Key Features
                                                    Applications
            1-D Barcodes                     •     Retail/ Grocery          •     Items can be quickly identified
                                                   Stores                   •     Can be used on mail pieces and
                                             •     Department of                  parcels for delivery/ tracking purposes
                                                   Defense                  •     Can be used in a distribution facility
                                             •     Healthcare                     on containers
       Matrix 2-D Barcodes                   •     Pharmaceuticals          •     Items can be uniquely identified
                                             •     Department of            •     Ability to store extra user information
                                                   Defense at item level    •     Can be used on mail pieces and
                                                   for high value assets          parcels for delivery/ tracking purposes
                                             •     Packages at item         •     Can be used in a distribution facility
                                                   level                          on containers
                                                                            •     Significantly lower tag cost than
                                                                                  Active RFID
            Passive RFID                                                    •     No internal power
                                                                            •     Items can be uniquely and quickly
                                             •     Supply Chain
                                                                                  identified
                                             •     Retail
                                                                            •     Industry Standard
                                             •     Libraries
                                                                            •     Can be used on parcels and
                                             •     Inventory Control
                                                                                  containers for delivery/ tracking
                                                                                  purposes
                                                                            •     Can be used on trucks in the yard for
                                                                                  tracking and inventory purposes
             Active RFID                                                    •     Battery powered
                                                                            •     Input/output sensors/ capabilities
                                             •     Logistics
                                                                            •     Long read distance
                                             •     Supply Chains
                                                                            •     Can be used on parcels and
                                             •     Shipping containers
                                                                                  containers for advanced delivery/
                                                                                  tracking purposes
             Active RTLS                                                    •     Battery powered
                                                                            •     Input/ output sensors/ capabilities
                                             •     Healthcare               •     Provides near real-time location in
                                             •     Industrial                     X,Y coordinates
                                             •     Yard Management          •     Can be used on parcels for delivery/
                                                                                  tracking; limited application to the
                                                                                  postal industry

U.S. Postal Service Office of Inspector General                                                                      January 13, 2014
                                                                19
RARC-WP-14-006                                                    Enriching Postal Information: Applications for Tomorrow’s Technologies



                                                  Sample Industries/
             Technology                                                                         Key Features
                                                    Applications
                 ZigBee
                                             •     Home Entertainment        •     Secure networking
                                                   and Control               •     Low data rate
                                                                                                     *
                                             •     Building Automation       •     Long battery life
                                             •     Traffic Management        •     Can be used in a distribution facility
                                                   Systems                         on containers
                                             •     Logistics/ Container
     Cellular/ Satellite based                                               •     Visibility of assets during
                                                   tracking
               GPS                                                                 transportation without fixed
                                             •     Fleet tracking
                                                                                   infrastructure
                                             •     Agriculture
                                                                             •     Input/output sensors/ capabilities
                                                   Equipment
                                                                             •     Can be used on handheld mobile
                                                                                   devices for delivery confirmation
                   BLE
                                                                             •     Low power requirements
                                             •     Health and Wellness       •     Small size
                                             •     Sport and Fitness         •     Compatibility with a large installed
                                                                                   base of mobile phones, tablets and
                                                                                              †
                                                                                   computers
*
    "FAQ,” Zigbee Alliance, 2013, http://www.zigbee.org/About/FAQ.aspx.
†
    “Low Energy,” Bluetooth, 2013, www.bluetooth.com.




U.S. Postal Service Office of Inspector General                                                                       January 13, 2014
                                                                20
RARC-WP-14-006                                                   Enriching Postal Information: Applications for Tomorrow’s Technologies




            Table 10: Technology Comparison Matrix — All Researched Technologies

                                            In-                    Used in High
                    Readability/                        Read                             Maturity of          Cost         Current
Technology                                Transit                    Volume
                     Efficiency                       Distance                           Technology          Trends         Cost
                                         Visibility                Applications
    1-D
                                                                                                                                $
 Barcode
   Data
 Matrix/2-D                                                                                                                     $
 Barcode
  Passive
                                                                                                                               $$
 UHF RFID

Active RFID                                                                                                                   $$$

   Active
                                                                                                                              $$$
    RTLS
   ZigBee
                                                                                                                              $$$

     GPS
                                                                                                                             $$$$
     BLE
                                                                                                                              N/A




U.S. Postal Service Office of Inspector General                                                                      January 13, 2014
                                                             21
RARC-WP-14-006                                                      Enriching Postal Information: Applications for Tomorrow’s Technologies



                          Table 11: Technology Matrix Breakdown — 1-D Barcode

          Criteria                 Rating                                          Comments
Readability/
                                                  Ability to read one barcode at a time via line of sight technology.
Efficiency
                                                  Does not provide in-transit visibility. Barcodes may only be read by
In-transit Visibility
                                                  handheld devices while in transit.
                                                                                                       *
Read Distance                                     Typically less than 6" with a “scanning gun.”
Used in High Volume
                                                  Yes — used in virtually all industries.
Applications
Maturity of                                       Very mature — in the 1970’s bar coding was introduced to grocery
                                                                                                                      †
Technology                                        store applications and was adapted by the DoD in the early 1980s.
                                                  Very low cost — ink for barcodes is a lot cheaper than RFID tags.
                                                  The proliferation of barcodes, along with the availability of equipment
Cost Trends                                       has made barcodes affordable. Many smart phones now include apps
                                                  to read barcodes. Barcode technology has likely reached a price
                                                  floor.
Current Cost                                      Pennies or less per barcode
*
    Barcode Scanning Overview,” POSWorld, http://www.posworld.com/barcodbas.html.
†
    “Grocery Store Applications in the 1970s,” Fortune Magazine, 2004,
    http://money.cnn.com/magazines/fortune/fortune_archive/2004/05/31/370719/index.htm, and Hiroko Kato,
    Keng T. Tan, and Douglas Chai, Barcodes for Mobile Devices, (Cambridge: Cambridge University Press,
    2010) p. 223.

                          Table 12: Technology Matrix Breakdown — 2-D Barcode

            Criteria                   Rating                                          Comments

Readability/ Efficiency                              Ability to read one barcode at a time via line of sight technology.
                                                     Does not provide in-transit visibility. Barcodes may only be read by
In-transit Visibility
                                                     handheld devices.
                                                     Depends upon the size of the barcode, but generally speaking, it is
Read Distance
                                                     read over a very short distance.
Used in High Volume                                  Yes — especially with higher value/ counterfeit items. However, not
Applications                                         used as widely as 1D barcodes.
Maturity of Technology                               Very mature.
                                                     Very low cost for barcode — ink for barcodes is a lot cheaper than
                                                     RFID tags. Similar to 1-D barcodes, the cost for 2-D barcodes
Cost Trends
                                                     remains very cheap in comparison to other technologies. Smart
                                                                                                                      *
                                                     phone apps also have the capability to read 2-D/Matrix barcodes.
Current Cost                                         Pennies per barcode.
*
    "How UPC Bar Codes Work," HowStuffWorks, September 13, 2013.




U.S. Postal Service Office of Inspector General                                                                         January 13, 2014
                                                                  22
RARC-WP-14-006                                                  Enriching Postal Information: Applications for Tomorrow’s Technologies




                          Table 13: Technology Matrix Breakdown — Passive RFID

            Criteria                   Rating                                      Comments
                                                  Ability to read multiple (hundreds) of tags within seconds and line-of-
Readability/ Efficiency
                                                  sight is NOT required. Tags are required to be within the read zones.
                                                  Does not provide in-transit visibility. Tags may only be read by RFID
In-transit Visibility                             enable handheld devices or when the tag goes through a fixed
                                                  reader “portal”/ chokepoint.
                                                  Passive RFID typically has a read range from 1- 60 feet, depending
                                                  upon the form factor, IC chip, antenna, reader, interference, etc. In
Read Distance
                                                  many standard use cases with fixed RFID readers, the read
                                                                                                          *
                                                  distances are configured to approximately 10-25 feet.
                                                  Yes — Used in supply chain applications and across the retail
Used in High Volume
                                                  industries. However, it is not nearly as accepted as bar coding
Applications
                                                  technology.
                                                  UHF passive RFID has a ratified standard and the technology works
Maturity of Technology
                                                  reliably with the appropriate set-up/ configuration.
                                                  Costs of tags and readers have significantly decreased in cost over
                                                  the last 10 years. As the number of passive RFID tags used by
Cost Trends
                                                  companies increases, particularly in asset tracking and inventory
                                                                                           †
                                                  control, the price continues to decline.
                                                  $0.10 per UHF tag for high volume, all purpose tags that are not pre-
Current Cost                                      programmed. Fixed UHF readers have also significantly decreased
                                                  in cost (e.g. less than $1,000/ fixed reader).
*
    “Active Vs. Passive RFID,” AtlasRFID Solutions, 2013, http://www.atlasrfid.com/auto-id-education/active-vs-
    passive-rfid/.
†
    "U.S. Manufacturers Report Greater RFID Usage," RFID Journal, September 19, 2013.




U.S. Postal Service Office of Inspector General                                                                     January 13, 2014
                                                               23
RARC-WP-14-006                                                  Enriching Postal Information: Applications for Tomorrow’s Technologies




                           Table 14: Technology Matrix Breakdown — Active RFID

            Criteria                   Rating                                      Comments
                                                  Ability to read multiple (hundreds) of tags within seconds and line-of-
Readability/ Efficiency
                                                  sight is NOT required. Tags are required to be within the read zones.
                                                  Does not provide in-transit visibility. Tags may only be read by RFID
In-transit Visibility                             when the tag goes through a fixed reader “portal”/ chokepoint, but
                                                                                            *
                                                  the tag read ranges may be very long.
Read Distance                                     Varies; typically the distance ranges from 500- 1,600+ ft.
Used in High Volume
                                                  Typically used to track container level assets.
Applications
                                                  The technology has been used throughout the DoD to track
                                                  shipments/ containers. However, there is not a ratified global
                                                  standard to make tags/ readers interoperable. ISO/IEC 18000-
Maturity of Technology
                                                  7:2009 exists and defines the air interface for radio frequency
                                                  identification (RFID) devices operating as an active RF tag in the
                                                  433 MHz band used in item management applications.
                                                  Costs of tags and readers have decreased over the last 10 years.
                                                  There has been an increase in manufacturers requiring suppliers to
                                                  provide RFID tagged materials in order to facilitate the tracking of
Cost Trends
                                                  inventory. RFID systems are also projected to increase in popularity.
                                                  This increase in utilization correlates with decreased costs, making
                                                                                     †
                                                  the product more cost-justifiable.
Current Cost                                      $20-$80 per tag.
*
    “Active Vs. Passive RFID,” AtlasRFID.
†
    U.S. Manufacturers Report Greater RFID Usage,” RFID Journal.




U.S. Postal Service Office of Inspector General                                                                     January 13, 2014
                                                               24
RARC-WP-14-006                                                  Enriching Postal Information: Applications for Tomorrow’s Technologies




                          Table 15: Technology Matrix Breakdown — Active RTLS

            Criteria                   Rating                                      Comments
                                                  Ability to read multiple (hundreds/ thousands) of tags within seconds
Readability/ Efficiency                           and line-of-sight is NOT required. Tags are required to be within the
                                                  coverage range.
                                                  Near-real time in-transit visibility/ accuracy is provided when a tag is
In-transit Visibility
                                                  within the coverage range (e.g. indoor building).
                                                  Read distance various depending upon the environment (e.g. indoor/
                                                  outdoor), infrastructure, etc. A typical indoor read range may be 180
Read Distance
                                                  ft. depending upon the tag and environment. Line of sight is not
                                                  required.
Used in High Volume
                                                  Typically used to track high-value assets and/ or resources.
Applications
                                                  The technology has become more popular throughout the healthcare
                                                  and industrial industries to track high dollar value assets and to help
Maturity of Technology
                                                  improve employee safety. However, there is not a ratified global
                                                  standard to make tags/ readers interoperable.
                                                  Costs of tags and infrastructure (optional) have decreased in cost
                                                  over the last 10 years. Similar to active RFID, the ability of RTLS to
                                                  offer real time information is very appealing to many markets.
                                                  However, many companies, while aware of RFID, may still be
Cost Trends
                                                  unaware of RTLS technology. This factor may be key in its success
                                                  in driving the market, and increasing RTLS adoption and decreasing
                                                  costs. Currently, RTLS costs have been decreasing at a rate of 5 to
                                                                        *
                                                  20 percent annually.
Current Cost                                      $30-$80 per active tag.
*
    "RTLS Market Overview." RTLS Market Overview. September 10, 2013, www.RFID.net.




U.S. Postal Service Office of Inspector General                                                                     January 13, 2014
                                                               25
RARC-WP-14-006                                                  Enriching Postal Information: Applications for Tomorrow’s Technologies




                               Table 16: Technology Matrix Breakdown — ZigBee

            Criteria                   Rating                                      Comments
                                                  Designed for hostile RF environments that exist in commercial
Readability/ Efficiency                           applications. ZigBee can transmit data over long distances by
                                                  passing it through intermediary devices.
In-transit Visibility                             The device must be within the mesh network to be read.
                                                  Range of 32-328 ft. As long as a wireless network exists across the
                                                  mesh, a connection can be made. An “end device” can relay data to
Read Distance
                                                  the “coordinator device” or a “router device.” Only one coordinator
                                                  device exists in each network.
                                                  A typical network can hold 64,000 nodes/ network. Multiple
Used in High Volume                               networks can be linked together in order to support an extremely
Applications                                      large network. A node can wake up, check in, send data, and shut
                                                  down in less than 30 minutes.
                                                  The technology was conceived in 1998, standardized in 2003, and
                                                  revised in 2006. The standard is IEEE 802.15.4, which is the
Maturity of Technology                            standard for low-rate wireless personal area networks. To utilize
                                                  ZigBee for commercial use, you must be a part of the ZigBee
                                                            *
                                                  Alliance.
                                                  Must establish a ZigBee network, however it is designed to be less
                                                  expensive than Bluetooth. The prices of Zigbee are decreasing.
                                                  Because wireless infrastructure prices continue to decease, this
Cost Trends
                                                  directly relates to the cost decline associated with this technology.
                                                  Low power usage and long battery life make this product relatively
                                                                †
                                                  inexpensive.
Current Cost                                      $30-$70 per tag.
*
    "FAQ,” Zigbee Alliance.
†
    “ZigBee® Wireless Standard - Technology - Digi International," ZigBee® Wireless Standard - Technology - Digi
    Internationa,l September 20, 2013.




U.S. Postal Service Office of Inspector General                                                                     January 13, 2014
                                                              26
RARC-WP-14-006                                                    Enriching Postal Information: Applications for Tomorrow’s Technologies




             Table 17: Technology Matrix Breakdown — Cellular / Satellite based GPS

            Criteria                   Rating                                        Comments
                                                  Satellite based GPS operates anywhere in the world. Cellular based
Readability/ Efficiency
                                                  GPS operates within cellular coverage areas.
In-transit Visibility                             In-transit visibility is fully supported.
                                                  Satellite based GPS operates anywhere in the world. Cellular based
Read Distance
                                                  GPS operates within cellular coverage areas.
Used in High Volume                               Typically used at the vehicle level and with high dollar/ strategic
Applications                                      equipment.
                                                  Technology has been widely used in consumer and business
Maturity of Technology
                                                  applications (e.g. DoD tracking of containers in-theater).
                                                  Decreasing over time and has become more widely used in
                                                  consumer and business applications. Because of the decreasing
                                                  costs of GPS receivers, the general public is increasing its use of
Cost Trends
                                                  GPS technology. More recently, personal navigations systems
                                                  enabled with GPS technology have taken price cuts up to 40
                                                           *
                                                  percent.
Current Cost                                      $150-$500 per tag.
*
    "Illumin - The Evolution of GPS," Illumin - The Evolution of GPS, University of Southern California, September
    19, 2013.

                                 Table 18: Technology Matrix Breakdown — BLE

            Criteria                   Rating                                        Comments
                                                  Even greater than classic Bluetooth technology, BLE over the air
Readability/ Efficiency
                                                  data rate is 1Mbit/s.
In-transit Visibility                             Works over wireless connectivity within a close physical range.

Read Distance                                     50m (160 ft).
Used in High Volume                               Not particularly equipped to handle large/ expansive applications.
Applications                                      BLE also has a 32-bit Message Integrity Check System.
                                                  BLE, originally introduced by Nokia, but merged into the Bluetooth
                                                  standard in 2010. Most recently Apple has become the first major
Maturity of Technology                            operating system to support BLE. Manufactures and application
                                                  developers can differentiate themselves by building BLE compatible
                                                            *
                                                  devices.
                                                  Manufacturers are expected to implement appropriate specifications
                                                  for their device to ensure compatibility. Cost depends on the type of
Cost Trends
                                                  technology chosen (e.g. BLE enabled phone). However, it markets
                                                                                                                      †
                                                  itself as low cost and operates on low power wireless connectivity.
Current Cost                             N/A      N/A
*
    “Low Energy,” Bluetooth.
†
    Ibid.




U.S. Postal Service Office of Inspector General                                                                       January 13, 2014
                                                                27
RARC-WP-14-006                                              Enriching Postal Information: Applications for Tomorrow’s Technologies




                                     U.S. Postal Service Office of Inspector General
                                                  1735 N. Lynn Street
                                                  Arlington, VA 22209

                                                  Telephone: 703-248-2100
                                                      www.uspsoig.gov

                                      For media inquiries, contact Agapi Doulaveris
                                              Telephone: 703-248-2286
                                               adoulaveris@uspsoig.gov


U.S. Postal Service Office of Inspector General                                                                 January 13, 2014
